    INDEPENDENT ACCOUNTANTS’ REPORT ON THE
     APPLICATION OF AGREED-UPON PROCEDURES

FEDERAL INTRAGOVERNMENTAL ACTIVITY AND BALANCES

  AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2004




             R. Navarro & Associates, Inc.
             Certified Public Accountants




                                   Report Number: 22-05-006-13-001
                                   Date Issued: December 2, 2004
                                                              TABLE OF CONTENTS



ACRONYMS .................................................................................................................................................i

INDEPENDENT ACCOUNTANTS’ REPORT
   ON THE APPLICATION OF AGREED-UPON PROCEDURES ........................................................ 1

EXHIBIT I - AGREED-UPON PROCEDURES AND RESULTS ............................................................. 2
                                        ACRONYMS


BPD       Bureau of the Public Debt, Department of the Treasury
CFO       Chief Financial Officer
DOL       Department of Labor
FACTS I   Federal Agencies’ Centralized Trial-Balance System
FMS       Financial Management Service, Department of the Treasury
GAO       General Accounting Office
GFRS      Government-wide Financial Report System
OCFO      Office of Chief Financial Officer
OIG       Office of Inspector General
OMB       Office of Management and Budget
RSI       Required Supplementary Information
SGL       Standard General Ledger
TFM       Treasury Financial Manual




                                               i
                          INDEPENDENT ACCOUNTANTS’ REPORT ON THE
                           APPLICATION OF AGREED-UPON PROCEDURES


Director, Financial Reports Division
Financial Management Services
Department of the Treasury


We have performed the procedures described at Exhibit I, which were agreed to by the Department of the
Treasury’s Financial Management Service (FMS), the U. S. Government Accountability Office (GAO), and the
Office of Management and Budget (OMB) as stated in the FMS Agency Reporting Requirements for the
Financial Report of the United States Government guidance, solely to assist FMS in the preparation of, and
GAO in the audit of the consolidated financial statements of the U.S. Government as of and for the year ended
September 30, 2004. The Department of Labor’s management is responsible for the proper accounting,
presentation and reporting of its consolidated financial statements and reporting of information to FMS.

This agreed-upon procedures engagement was conducted in accordance with attestation standards established by
the American Institute of Certified Public Accountants and the Government Auditing Standards, issued by the
Comptroller General of the United States. The sufficiency of these procedures is solely the responsibility of
FMS, GAO and OMB. Consequently, we make no representations regarding the sufficiency of the procedures
described in Exhibit I, either for the purpose for which this report has been requested or for any other purpose.

The procedures we performed and our associated results are presented at Exhibit I.

We were not engaged to, and did not perform an audit of the matters addressed herein, the objective of which
would be the expression of an opinion on such information. Accordingly, we do not express such an opinion.
Had we performed additional procedures, other matters might have come to our attention that would have been
reported to you.

This report is intended solely for the information and use of the Department of Labor, OMB, FMS and GAO and
is not intended to be, and should not be, used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes.




December 2, 2004
                       EXHIBIT I - AGREED-UPON PROCEDURES AND RESULTS



Procedure 1

Obtain all Closing Package trading partner data for intragovernmental activity/balances supporting the Closing
Package Reclassified Balance Sheet’s Federal Assets and Liabilities, Reclassified Statement of Net Cost’s Federal
Gross Cost and Federal Earned Revenue, and Reclassified Statement of Change in Net Position’s Federal Non-
exchange Revenue and Budgetary and Other Financing Sources.

Result

We obtained all Closing Package data for intra-governmental activity/balances.




Procedure 2

Trace the intragovernmental transactions Closing Package trading partner data by Federal line item totals and/or
trading partner activity/balances to the agency general ledger and the audited financial statements. Identify any
differences.

Result

We traced all intra-governmental transactions shown on the Closing Package by Trading Partner to the general
ledger and to the audited financial statements of the Department of Labor and noted no differences.




Procedure 3

Trace trading partner activities/balances from the intragovernmental transactions Closing Package trading partner
data to the agency’s supporting schedules (Agency Fourth Quarter Intragovernmental Reconciliation and CFO
Representations using Closing Package data). For items where agency reporting differences exist, trace the
explanations to supporting documentation and identify any discrepancies.

Result

We traced all trading partner activities/balances from the intra-governmental transactions Closing Package trading
partner data to the agency’s supporting schedules.

Attachment B to the CFO Representations shows that some of the information on the RSI differs from the Closing
Package. In addition, the Attachment B shows three trading partners F57, F70 and other, whereby a period was
inadvertently inserted making it appear that the amounts are shown in thousands rather than millions of dollars. For
example F57 shows $79,782.00 whereas the amount was intended to be $79,782,000.




                                                         2
The Attachment B prepared by the OCFO lists three exceptions, as follows:

    1. The first part shows three trading partners with earned revenue. F57 Department of the Air Force was
       shown in RSI as $79,782,000 when it should have been $190,978,000. The Closing package properly
       reflected the correction. The $79,782,000 represents FEMA’s (Homeland Security) amount. F70
       Homeland Security was shown in RSI as $131,402,000 when it should have been $211,184,000. The
       Closing package reflected the correct amount. The difference of $79,782,000 was transferred when the RSI
       incorrectly classified it as Air Force. The “Other” category in RSI showed the $190,978 that belonged to
       Air Force. The correction mentioned earlier reduced the Closing package amount for other to $75,546,000.
    2. The FUTA Taxes and Black Lung Excise Taxes were originally classified as 9999 rather than 9900.
    3. The accounts receivable for other agencies was reported as TP 99 rather than TP 95.

    We concur with the explanations provided on Attachment B.

    We also found on the FY 2004 CFO Representations for Federal Intra-governmental Activity and Balances, the
    OCFO represented that would only contact trading partner 13 and 97 because their differences deemed to be
    potentially material. We believe that they should also include trading partner 47 since their difference is larger
    than trading partner 13.




Procedure 4

Obtain FMS’ Comparative Closing Package Explanation of Differences Report for intragovernmental
activities/balances.

    •    Trace the differences between the agency and its trading partners by reciprocal category/line-item from
         FMS’ comparative reports to explanations from agency supporting documentation.

    •    Identify any inconsistencies in amounts or explanations between FMS’ comparative reports and agency
         supporting documentation.

In the event of non-reporting by trading partners, as indicated in the footer section of FMS’ comparative reports,
identify that the difference is due to a non-reporting partner and do not proceed further with the review of the
differences.

Result

We traced the differences listed on FMS’ report to the explanations provided by OCFO, and found that they were
complete and properly explained. We also found no inconsistencies in the explanations based on the OCFO’s
supporting documentation. The OCFO has explained that they used incorrect Reciprocal Categories in the GFRS,
however each correction was properly explained in Attachment A to the OCFO Representation submitted to FMS,
the GAO and the OIG.

In addition, we provide the following schedule showing the differences with additional explanations. The
differences were caused by the manner in which the Closing Package classified intra-governmental transactions.
The total account balances reported on the Closing Package were correct, however, certain of the Reciprocal
Categories were not correct :




                                                         3
                                        Reported by
Trading    RC        Reported by         Trading
Partner   Code          DOL               Partner          Difference     Note




  13       24    $     71,793,116   $     83,233,000   $ (11,439,884)      1




  18       21    $ 310,415,000      $ 312,157,000      $    (1,742,000)    2




  20       17    $ 8,740,557,000    $ 8,741,000,000    $     (443,000)     3




 33R       21    $     10,566,421   $      8,040,876   $     2,525,545     4




  47       24    $ 229,225,248      $ 248,000,000      $ (18,774,752)      5




  60       19    $            -     $ 129,810,341      $ (129,810,341)     6




                                    4
                          Retirement Board activity in the Unemployment Trust Fund (UTF) it was
                          determined that the activity should be treated as a Non-Entity asset and a
                          liability to the Railroad Retirement Board and that transfers (SGL 57XX)
                          between Railroad Retirement Board and UTF should not be recorded.
                          The Unemployment Trust Fund Liability and the Receivable of the
                          Trading Partner is what gets tracked as intra-governmental activity. The
                          liability is properly reported refer to Note 9.

              Note 7      Receivable FECA Navy                         1320     $     565,884,611
                          Receivable FECA Army                         1320     $     328,674,052
                          Receivable FECA Army                         1320     $      46,768,218
                          Corps of Engineers
                          Receivable FECA Air                          1320     $     304,420,873
                          Force
                          Receivable FECA Defense                      1320     $     186,376,444
                          Receivable UTF UCX                           1320     $      77,002,224
                          Navy
                          Receivable UTF UCX                           1320     $     134,591,767
                          Army
                          Receivable UTF UCX Air                       1320     $       26,175,089
                          Force
                          Receivable UTF UCX                           1320     $        5,047,990
                          Defense

                          Total Reported                                        $    1,674,941,268

              Note 8      We have no other activity on the general ledger for the Defense
                          Department that equals the liability of $161,900,000 reported by them.

              Note 9      DOL categorized the $86,208,934 as other liability which defaults to
                          reciprocal code 29. The proper code should be 27. The Trading partner
                          classified the amount under code 22 when it should be 27.


We found that there are other differences that are not shown on the Comparative Status of Disposition Report. The
differences are not shown, we believe, because they were not material. For example, the OCFO reported on the
Statement of Net Costs other costs of $1,552,572, which was reported under reciprocal code 29. The total amount
is correct and derived from the general ledger, however, it should have been reported in the Closing Package as
follows:

Reciprocal Code                Amount
   26                      $ 232,851,153
   25                      $ 110,343,577
   24                      $ 555,378,002
    5                      $ 653,999,426
    Total                  $1,552,572,158

The OCFO has indicated that the $1.5 billion in other costs was reclassified in GFRS from a financial statement
perspective. GFRS did not indicate Reciprocal Codes by line item within the reclassification module. Identifying
the Reciprocal Codes would provide additional clarification on how to capture Intra-governmental Activity in
GFRS. Additionally, GFRS training session should allot more time towards the Intra-governmental Trading
Partner module to include the use of Reciprocal Codes.




                                                        5
On the Statement of Net Costs for earned revenue, the agency reported $3,316,237,774 under reciprocal code 26
Benefit Program Expense when approximately $120 million should have been for code 24, as follows:

   24                        $ 120,418,616
   26                        $3,195,819,158
   Total                      $3,316,237,774

On the Reclassified Balance Sheet, the agency reported accounts receivable of $3,916,673,833 under reciprocal
code 21, however, approximately $7 million should have been for code 22, as follows:

  21                         $3,909,885,594
  22                         $    6,788,239
  Total                      $3,916,673,833

On the Reclassified Balance Sheet, the agency reported Advances from the U.S. Treasury of $8,740,557,000 under
reciprocal code 23; however, it should have been reciprocal code 17.



Procedure 5

Identify and include copies of internal control findings related to intragovernmental activities from the financial
statements audit. Also, identify and report auditor-proposed intra-governmental adjustments that were waived by
the agency, including items cited in the management letter.

Result

There were no internal control findings related to intra-governmental activities from the financial statement audit.

The following represents the passed adjustment that were waived by the Department:

Trading Partner 70 Home Land Security (FEMA). The Department of Labor recognized revenue (General ledger
5200) of $50,400,000. No revenue should have been recognized since the services had not been provided. The
adjustment was:

Debit Revenue GL 5200                                        $50,400,000
Credit Advances from Federal Sources GL 2310                               $50,400,000

Trading Partner 99 Unidentified (IRS). The Department of Labor did not record a $17,092,061 cash adjustment
refund. The adjustment was:

Debit FUTA Tax Revenue                                       $17,092,061
Credit Funds With Treasury                                                 $17,092,061

There were no management letter findings pertaining to intra-governmental activities.




                                                         6
